No. __________
IN THE

MONIQUE A. LOZOYA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

CUAUHTEMOC ORTEGA
Federal Public Defender
JAMES H. LOCKLIN *
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012
Tel: 213-894-2929
Fax: 213-894-0081
Email: James_Locklin@fd.org
Attorneys for Petitioner
* Counsel of Record

I, James H. Locklin, hereby certify that on April 28, 2021, copies of the
petitioner’s Motion for Leave to Proceed in Forma Pauperis, Petition for a Writ of
Certiorari to the United States Court of Appeals for the Ninth Circuit, and
Appendices to Petition for a Writ of Certiorari were mailed, postage prepaid, to the
Solicitor General of the United States, Department of Justice, Room 5616, 950
Pennsylvania Avenue, N.W., Washington, D.C. 20530-0001, counsel for the
respondent.
In addition, copies of these documents were emailed to the Solicitor General at
SupremeCtBriefs@usdoj.gov.

April 28, 2021

Respectfully submitted,
CUAUHTEMOC ORTEGA
Federal Public Defender

JAMES H. LOCKLIN *
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

2

